Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 Medicare Payments for Orthotics

       Inappropriate Payments




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 2000
                      OEI-02-99-00120
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Demetra Arapakos, Project Leader                     Stuart Wright, Program Specialist
Vincent Greiber                                      Scott Horning, Technical Support
                                                     Barbara Tedesco, Statistician




  To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                              http://www.dhhs.gov/progorg/oei
                         EXECUTIVE SUMMARY

PURPOSE

         To determine the extent of inappropriate Medicare payments for orthotics.

BACKGROUND

         This study, a follow-up to a 1997 Office of Inspector General report entitled “Medicare
         Orthotics” (02-95-00380), was conducted to determine what changes, if any, have
         occurred with Medicare orthotics. We have also prepared a companion report entitled
         “Medicare Reimbursement for Orthotics - Carrier Perspectives” (02-99-00121) which
         examines orthotic policies from the four durable medical equipment regional carriers
         (DMERCs) and obtains their perspectives on Medicare reimbursement for these devices.

         Orthotics are rigid devices, often called braces, which are applied to the outside of the
         body as a means of support. They are categorized into one of three groups of devices:
         custom fitted, which require alterations to a prefabricated product; custom fabricated,
         which are made for a specific patient from his/ her individual measurements; and molded
         to patient model, which are created from a cast of the patient’s body part. Add ons, such
         as straps and linings, are billed separately. Suppliers of orthotics include certified
         orthotists, medical equipment companies, and physicians’ offices.

         Using a stratified random sample of 500 Medicare beneficiaries who had one or more
         orthotic claims in 1998, we combined three methods for this inspection. They include a
         beneficiary medical record review, a coding review, and a supplier feedback survey.

FINDINGS

Inappropriate Medicare reimbursement for orthotics continues at significant
levels

         Thirty percent of beneficiaries have one or more miscoded orthotic device. The miscoded
         orthotics represent $33,071,800 in excessive Medicare payments when projected to the
         total Medicare population. Three reasons account for nearly all of this miscoding: the
         device does not meet the specifications of the code billed; the device is not custom
         fabricated or molded, as indicated by the code billed; or the part billed is already included
         in the base code for a larger device.




                                                     )))))))))))
Medicare Payments for Orthotics- Inappropriate Payments   1                              OEI-02-99-00120
         Seven percent of beneficiaries have one or more medically unnecessary orthotic device.
         The medically unnecessary orthotics represent $9,935,500 in excessive Medicare payments
         when projected to the total Medicare population. Most of these beneficiaries lack a
         medical condition or diagnosis that warrants the prescription of an orthotic device; others
         could have used a less complex device to obtain the same medical benefit or are
         inappropriately using a device for preventive or palliative purposes. Another 16 percent of
         beneficiaries have orthotics that are medically questionable. The medically questionable
         orthotics represent $1,165,200 in Medicare payments when projected to the total
         Medicare population.

         In addition to the miscoded and medically unnecessary and questionable cases already
         discussed, other cases appear suspect. Of the 1404 prescribed devices in our sample, 20
         percent fall into one of the following 3 categories: we were unable to locate the
         prescribing physician, the physician reported no record of a patient, or the physician
         claimed never having ordered the device. These suspect cases represent approximately
         $28,145,200 in Medicare payments when projected to the total Medicare population.

         Lastly, inadequate medical and supplier documentation, as well as limited physician
         involvement in patient’s use of orthotics, also raise questions about the appropriateness of
         Medicare orthotic payments.

Qualifications of orthotic suppliers vary, with non-certified suppliers in our
sample the most likely to provide inappropriate devices

         The orthotic suppliers in our sample include a broad range of different provider groups
         and most commonly include individual certified orthotists and durable medical equipment
         companies. Our supplier survey reveals that 68 percent of the suppliers in our sample
         employ and/or contract with certified orthotists and 32 percent do neither. While there are
         fewer non-certified suppliers than certified suppliers in our sample, non-certified suppliers
         are more likely than certified suppliers to provide inappropriate devices. Forty-six percent
         of these suppliers provide inappropriate orthotics, compared to 16 percent of certified
         suppliers. Miscoding is the main reason devices they supply are inappropriate.

RECOMMENDATIONS

         The findings of this report, as well those from the recently released OIG report “Medicare
         Payments for Orthotic Body Jackets,” reveal that Medicare is inappropriately paying for
         some orthotic devices. Both studies identify miscoding as problematic, particularly for
         devices that are individually fitted to the patient’s measurements. Furthermore, this report
         shows non-certified suppliers are the most likely to provide inappropriate devices.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    2                             OEI-02-99-00120
         We therefore recommend that HCFA take action to improve Medicare billing for
         orthotic devices.

         The HCFA may want to consider the following options:

         C	
         C         Require suppliers to maintain a description of how custom fabricated and molded
                   devices are made. The OIG report on orthotic body jackets referenced above
                   recommends that suppliers include detailed information on the products they
                   provide on their claims. The HCFA responded that this would be burdensome to
                   providers and carriers. To avoid such a burden, we suggest that a description need
                   not be detailed and can be kept on file with the supplier. It could include basic
                   information such as whether or not a device was individually fitted to a patient’s
                   specific measurements. Such descriptions have already been developed by the
                   SADMERC and are required when suppliers seek clarification on appropriate
                   coding. The SADMERC descriptions could be used as models for suppliers to use
                   when billing for certain orthotic devices.

         C	        Develop product classification lists for all major groups of orthotic devices. In its
                   report on orthotic body jackets, the OIG recommended a revision of coding
                   guidelines. In its response, the HCFA stated that it would develop a product
                   classification list for the body jacket code L0430. We believe such lists would also
                   be useful for all orthotic groups. Given the complexity and rapid technological
                   changes in the orthotics industry, understanding the appropriate coding for these
                   devices can be confusing. Product classification lists would help to clarify the
                   appropriate codes for different types of devices. The carriers are already
                   discussing ways in which coding for orthotics can be clarified and we encourage
                   their efforts.

         C	        Educate the supplier community. We believe increased education of the supplier
                   community will enhance their understanding of coding requirements and
                   procedures.

         C	        Work with the DMERCs to strengthen the billing process for orthotics. In our
                   companion report on carrier perspectives on orthotics, we discuss several carrier
                   practices and suggestions for improving the way in which orthotics are paid.
                   These include developing additional screens and edits, requiring suppliers to
                   submit a patient diagnosis as part of their claim, and establishing more specific
                   guidelines for “miscellaneous” codes.

         We also recommend that HCFA require standards for suppliers of custom molded
         and custom fabricated orthotic devices. Suppliers of these devices must be skilled in
         fitting and crafting an orthosis to the individual measurements of the patient. We believe
         that establishing standards would help to ensure that suppliers providing custom molded

                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    3                               OEI-02-99-00120
         and fabricated devices have such skills and that the devices they supply are appropriate.
         The HCFA may want to consider establishing their own standards for orthotic suppliers or
         using already established industry certification.

         We believe that implementing these recommendations would eliminate as much as
         $43,007,300 annually in inappropriate Medicare orthotic payments.

Comments

         We received comments on the draft report from the Health Care Financing Administration.
         The HCFA generally concurs with our recommendations. In response to our
         recommendation that standards be required for suppliers of custom molded and fabricated
         devices, HCFA states that it is currently working on a proposed rule that will set general
         provider standards but not specific standards for custom orthotic suppliers. Given the
         specialized training and skills necessary for fitting and creating custom molded and
         fabricated devices, we continue to believe in the importance of additional standards for
         suppliers providing custom devices. The full comments are presented in Appendix D.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    4                          OEI-02-99-00120
                          TABLE OF CONTENTS

                                                                                                                       PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS


         Inappropriate reimbursement continues at significant levels                    . . . . . . . . . . . . . . . . . . . . 11


         Qualifications of suppliers vary, with non-certified most likely to be inappropriate . . . . 15


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDICES


         A: Confidence intervals for key estimates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         B: Confidence intervals for dollar projections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


         C: Non-respondent analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


         D: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26





                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    5                                                   OEI-02-99-00120
                                    INTRODUCTION

PURPOSE

         To determine the extent of inappropriate Medicare payments for orthotics.


BACKGROUND

         This study, a follow-up to a 1997 Office of Inspector General report entitled “Medicare
         Orthotics” (02-95-00380), was conducted to determine what changes, if any, have
         occurred with Medicare orthotics. In that report, we found that at least 19 percent of
         orthotics provided are medically unnecessary and that durable medical equipment
         companies more likely than orthotists to supply the questionable orthotics. We have also
         prepared a companion report entitled “Medicare Reimbursement for Orthotics - Carrier
         Perspectives” (02-99-00121) which examines orthotic policies from the four durable
         medical equipment regional carriers (DMERCs) and obtains their perspectives on
         Medicare reimbursement for these devices.

         Additionally, in September, 1999, the OIG released another follow-up report entitled
         “Medicare Payments for Orthotic Body Jackets” (04-97-00390). That study reported that
         while Medicare payments for orthotic body jacket code L0430 had decreased, 42 percent
         of claims for these devices were upcoded. This upcoding was attributed in part to a lack
         of coding uniformity and standardization.

Orthotics

         Orthotics are rigid devices, often called braces, which are applied to the outside of the
         body as a means of support. An orthotic device differs from a prosthetic in that, rather
         than replacing a body part, it supports and/ or rehabilitates existing body parts. Orthotic
         devices are usually customized for an individual’s use and are not appropriate for anyone
         else. They have evolved in recent years to also include off the shelf devices that can serve
         functions similar to custom fitted components with little or no alteration necessary. New
         computer programs are also available which can design orthotic devices based on the
         patient’s individual measurements. Examples of orthotics include spinal body jackets and
         knee braces.

         Individuals requiring orthotics range from the severely disabled, such as paraplegics or
         quadriplegics, to those who require an ankle brace for better gait or are recovering from a
         temporary back injury. An individual may need to wear the orthotic continuously for the


                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    6                             OEI-02-99-00120
         duration of his or her lifetime, every day until the condition improves, or for some other
         time frame as prescribed by a physician.

         There are several different ways in which an orthotic may be supplied. Typically, a
         physician prescribes the orthotic and refers the patient to an orthotist or an orthotic
         supplier. Orthotic devices may also be supplied by a clinic, hospital, or nursing home.
         Some orthosis prescriptions are very specific, while others are more general. The supplier
         uses these prescriptions, as well as their own examination of the patient, to determine the
         device needed. If a device needs to be made, the patient is likely to return to the supplier
         to have the device fitted. Ideally, the supplier also instructs the patient on how to put on,
         take off, and maintain the device, and provides follow-up care, although this is not
         required for payment.

Medicare Orthotics: Coverage and Payments

         Orthotic devices are primarily covered under Medicare Part B. As with all Medicare Part
         B services, covered orthotics must be reasonable and necessary for the diagnosis or
         treatment of an illness or injury. In order to meet Health Care Financing Administration
         (HCFA) coverage requirements, an orthotic must be a rigid or semi-rigid device used
         either to support a weak or deformed member or to restrict or eliminate motion in a
         diseased or injured part of the body. Orthotic claims must have a prescription and/ or a
         certificate of medical necessity signed by a physician.

         Orthotic devices are classified into 1 of 465 different codes (L0100 through L4380) in the
         Common Procedure Coding system HCFA uses for billing. These L-Code listings give a
         brief description of the device. These listings also define the device as one of three types:
         C	      Custom fitted, which require substantial adjustments to a prefabricated item by a
                 specially trained professional to meet the needs and/or unique shape of an
                 individual patient;

         C	        Custom fabricated, which are made for a specific patient from his/her
                   individualized measurements and/ or pattern; or

         C	        Molded to patient model, whereby a cast is made of the specified body part and is
                   used to create an orthotic device.

         Some orthotics may also have additional components which are billed separately. For
         example, an ankle-foot orthosis may require special strap, joints, or linings that have their
         own codes and are therefore billed in addition to the basic device.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    7                                OEI-02-99-00120
Durable Medical Equipment Regional Carriers

         Orthotic claims are processed and paid for by one of four regional carriers called
         DMERCs (Durable Medical Equipment Regional Carriers). In October 1993, HCFA
         began processing all Medicare Part B claims for medical equipment, supplies, orthotics,
         and prosthetics through these carriers. Their establishment was intended to help eliminate
         the inconsistency of coverage and reimbursement for medical equipment that had been
         problematic in the past. The DMERCs are divided into regions A, B, C, and D and cover
         the entire country. The DMERCs ensure that coverage requirements are met before
         approving payment and provide educational services to suppliers.

Orthotic Suppliers

         Any supplier with a HCFA provider number can provide and bill for orthotics, and no

         verification is done to specifically address their ability to provide orthotics. Suppliers of

         orthotic devices include orthotists, medical equipment companies, pharmacies, and

         doctors’ offices. Some general medical equipment suppliers may have an orthotist on

         staff. Suppliers may manufacture the devices in their own workshops or obtain them from

         other companies.


         Of all these supplier types, only orthotists have professional certification to provide

         specialist services. An orthotist provides care to patients with disabling conditions of the

         musculoskeletal structure of the body. At the request of, and in conjunction with

         physicians, the orthotist assists in formulating prescriptions for orthoses and examines and

         evaluates the patients’ orthotic needs in relation to their functional loss. More specifically,

         the orthotist:


         <         formulates the device’s design and selects materials and components; 

         <         makes all necessary casts, measurements, model modifications, and layouts; 

         <         performs fittings, including static and dynamic alignments; 

         <         evaluates the orthosis on the patient; 

         <         instructs the patient in its use; and 

         <         maintains patient records.


         Two organizations offer orthotist certification: the American Board for Certification in

         Orthotics and Prosthetics, Inc., (ABC), and the Board of Certification (BOC). The ABC

         sets standards of competency and grants a Certified Orthotist (CO) credential. To qualify

         for ABC certification on orthotics, an individual must have a college degree, have

         completed a postgraduate orthotist certificate program from an accredited institution, and

         have at least 1 year of patient management experience. The candidate must also pass two

         written exams and a 3-day clinical exam that tests the ability to design, fabricate, and fit a

         variety of orthoses. Certified practitioners must meet continuing education requirements



                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    8                               OEI-02-99-00120
         every 5 years to renew their credentials. Currently, there are approximately 3,000 ABC
         certified orthotists in the United States.

         The BOC also certifies orthotists and there are currently more than 900 BOC certified
         orthotists. In order to sit for the BOC certification exam, which includes written and
         practical components, the applicant is required to have one or more of the following: a
         bachelor’s degree with a major in orthotics or prosthetics; an associate degree in a related
         field, or; one or more years of orthotics/ prosthetics education, training and/ or supervised
         work experience, including intensive study. All BOC orthotists must document a
         minimum of 2 years (3,900 hours) experience providing direct patient services.


METHODOLOGY

         We combined three methods for this inspection: a medical record review, a coding review,
         and a supplier feedback survey.

Sample

         We selected a stratified random sample of 500 Medicare beneficiaries from the 1 percent
         National Claims History file who had one or more orthotic claim paid in 1998. We
         excluded beneficiaries from skilled nursing facilities as well as beneficiaries with claims
         totaling less than 50 dollars. We then stratified the remaining beneficiaries into three
         groups of high, medium, and low utilization based on the dollar amount of their collective
         payments. The low stratum consisted of beneficiaries with orthotic claims totaling less
         than 500 dollars, the medium stratum consisted of those with between 500 and 1,000
         dollars of orthotic claims, and the high stratum comprised beneficiaries whose total claims
         were greater than 1,000 dollars.

         Of the 500 beneficiaries in our sample, 63 percent had 1 orthotic device billed during
         1998, 29 percent had 2 devices, and the remaining 31 percent had 3 or more devices billed
         during that time period. The 500 beneficiaries had a total of 1,404 devices.

Medical Record Review

         The 500 beneficiaries in our sample had 521 prescribing physicians. We requested medical
         records from all 521 physicians from April to June 1999, and received a response from
         388, for a response rate of 74 percent; see Appendix C for a non-respondent analysis. We
         were unable to locate 43 physicians.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    9                              OEI-02-99-00120
         Of the 388 responding physicians:

         C         304 provided a medical record;
         C         43 indicated that they had no record of the patient;
         C         16 indicated they had not prescribed the device; and
         C	        26 responded with only a letter discussing the reason why they ordered an orthotic
                   for their patient.

         Once we obtained the medical records, we used a medical review contractor to review the
         records to determine if the orthotic(s) the beneficiary had a claim paid for was medically
         necessary. Using a screening instrument based on DMERC medical guidelines and input
         from one of the DMERC medical directors, an occupational therapist screened records
         and passed any records which failed the initial screening to a physician who then made a
         final determination of medical necessity.

Coding Review

         The 500 beneficiaries in our sample had 547 orthotic suppliers. We requested
         documentation on the device(s) provided from all 547 suppliers from April to June 1999.
         We received information from 412 suppliers, for a response rate of 75 percent; see
         Appendix C for a non-respondent analysis. Most of these suppliers provided some
         combination of a brochure or pamphlet, invoice, photocopy from the AOPA orthotic
         manual, or a claim form.

         Once we obtained information from the suppliers, the HCPCS coordinator at the
         Statistical Analysis DMERC reviewed the documentation to determine if the orthotic(s)
         the beneficiary had a claim paid for was appropriately coded. The HCPCS unit at this
         carrier is responsible for resolving coding issues and provides guidance to providers on the
         appropriate codes to use. Using a structured review sheet to evaluate the materials sent to
         us by suppliers, the reviewer made a final determination of appropriate coding.

Supplier Survey

         We also conducted a mail survey of all of the suppliers in our sample. Along with
         documentation for the devices they supplied, we asked them to fill out and return a short
         survey about their staff. We specifically asked if they employ or contract with certified
         orthotists, who molds and fits devices, or who supervises the crafting of orthotics. Of the
         547 suppliers in our sample, 412 returned our feedback survey, for a response rate of 75
         percent. While we are unable to project to the universe of all orthotic suppliers, we report
         the findings of this survey within the context of suppliers in our sample.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.

                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    10                            OEI-02-99-00120
                                              FINDINGS

Inappropriate Medicare reimbursement for orthotics continues at
significant levels

One-third of Medicare beneficiaries have miscoded orthotics

         Based on the coding review, 30 percent of beneficiaries have miscoded orthotics, as
         illustrated in Chart 1 below. This represents 22 percent of the 1404 devices billed for our
         sample beneficiaries.


                                                Chart 1
                        Medicare Beneficiaries Using Orthotics: Coding Review




         The miscoded orthotics used by these beneficiaries represent $33,071,800 in excessive
         Medicare payments when projected to the total Medicare population. This is a
         conservative estimate, however, since we assumed that all the beneficiaries for whom we
         had inadequate information had appropriately coded orthotics.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    11                           OEI-02-99-00120
         Three reasons account for nearly all of this miscoding: the device does not meet the
         specifications of the code billed; the device is not custom fabricated or molded, as
         indicated by the code billed; or the part billed is already included in the base code for a
         larger device. Examples of typical miscoding include:

         <	        a less expensive off-the-shelf device without individualized fitting that was coded
                   as an orthosis that should have been molded to a plaster model of the patient;

         <	        a flexible device that was coded as an orthosis that should have provided rigid
                   control;

         <	        a device that was worn without a shoe but was coded as an orthosis that was
                   designed to be worn with a supportive shoe; and

         <	        devices that are not orthotics at all but some other item, such as a girdle or athletic
                   sock.

         All orthotics must meet general Medicare guidelines in order to be covered. However,
         several groups of devices lack any additional coverage guidelines specific to their use.
         These include upper limb and hip devices, most of which have no requirement that they be
         individually fitted to the patient. A majority of the miscoded devices we reviewed (59
         percent) do not have additional coverage guidelines specific to their use.

         Many beneficiaries with miscoded orthotics (43 percent) have more than one device that is
         problematic. Of these, many have 3 or more miscoded devices. In some instances, it is
         the combination of devices used that is not appropriate. For example, a beneficiary may
         not have needed a particular add-on to their base orthotic or may have had more than one
         add-on device.

Seven percent of beneficiaries have medically unnecessary orthotics

         Based on the medical necessity review, 7 percent of beneficiaries have one or more
         orthotic devices that is medically unnecessary, as illustrated in Chart 2 on the following
         page. This represents 7 percent of the 1404 devices billed for our sample beneficiaries.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    12                                OEI-02-99-00120
                                              Chart 2
                 Medicare Beneficiaries Using Orthotics: Medical Necessity Review




         The medically unnecessary orthotics used by these beneficiaries represent $9,935,500 in
         excessive Medicare payments when projected to the total Medicare population. This is a
         conservative estimate, however, since we assumed that all the beneficiaries for whom we
         had inadequate information had medically necessary devices.

         Most of the beneficiaries with medically unnecessary devices lack a medical condition or
         diagnosis that warrants the prescription of an orthotic device. Some beneficiaries could
         have used a less complex device to obtain the same medical benefit. Other reasons for the
         lack of medical necessity include the use of an orthosis for preventive or palliative
         purposes and a lack of evidence that the device is rehabilitative. Specific examples of
         beneficiaries using medically unnecessary devices include:

         <         a wheelchair-dependent patient who received devices to assist with ambulation;

         <         a patient who was prescribed an orthotic device for a foot condition that
                   developed only after the device was used; and

         <         a patient who had both a shoulder brace and an ankle-foot orthotic but whose
                   medical records only indicate a need for the latter.

         About half of beneficiaries with medically unnecessary orthotics have more than one
         problematic device. For example, a beneficiary may have obtained several devices over a
         short time frame when not all were required. In one case, one beneficiary received six of
         the same ankle-foot device within 1 year.

                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    13                             OEI-02-99-00120
An additional 16 percent of beneficiaries have orthotics that are medically
questionable

         An additional 16 percent of beneficiaries have medically questionable orthotics. The
         medically questionable orthotics used by these beneficiaries represent $1,165,200 in
         Medicare payments when projected to the total Medicare population. In these cases,
         while there was often insufficient information to make a final determination on medical
         necessity, the physician reviewer noted devices that are suspect. In many of these cases,
         our physician reviewer noted a questionable medical need for the device being used and a
         lack of documentation of the specific medical condition for which a device was prescribed.
         In other cases, there was no match between the device provided and the device prescribed
         or the claim date preceded the date of the physician prescription. Another physician
         ordered the same exact devices for all of his patients, regardless of their medical condition.
          The physician reviewer also questioned the need for certain add-on devices and multiple
         billings for the same device. In several cases, beneficiaries were provided with non-
         corrosive finishes to braces that were made of stainless steel.

Other cases are highly suspect

         In addition to the miscoded and medically unnecessary and questionable cases already
         discussed, other cases appear suspect. Of the 1404 prescribed devices, 20 percent fall into
         one of the following 3 categories: we were unable to locate the prescribing physician, the
         physician reported no record of a patient, or the physician claimed never having ordered
         the device. These suspect cases represent approximately $28,145,200 in Medicare
         payments when projected to the total Medicare population.

Inadequate documentation and limited physician involvement also raise
questions about the appropriateness of Medicare orthotic payments

         Inadequate documentation. One concern noted in our reviews is the lack of adequate
         documentation to support beneficiaries’ appropriate use of orthotics.

         <	        Thirty-five percent of beneficiaries had suppliers who sent insufficient
                   information to determine coding accuracy. Most of these were custom fabricated
                   and molded devices for which the supplier sent only a picture of the device from an
                   industry manual. Without an accompanying description of how the device was
                   molded and fitted to the patient’s individual measurements, our coding reviewer
                   was reluctant to make a final decision on coding accuracy.

         <	        Ten percent of beneficiaries had physicians who had inadequate documentation
                   to determine medical necessity. Of the cases passed to a physician for review, 10
                   percent had inadequate medical information for our physician reviewer to make a
                   determination on medical need.

                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    14                             OEI-02-99-00120
         Limited physician involvement. Our medical record review also revealed a lack of
         physician involvement in beneficiaries’ use of orthotics. Although physicians must sign the
         order for their patient’s device, there is not always an indication of their follow-up or
         other involvement. More specifically, only 63 percent of devices were selected by
         patient’s physicians, and just 10 percent of devices are being used with a plan of care.
         Also, physician’s notes are not consistently specific as to their patient’s need for an
         orthosis and do not always address how the device should be used.

         Furthermore, beneficiaries using orthotics appear to not always be receiving adequate
         care. Only one-third of devices are being used with follow-up care to assure they are
         working as intended and are benefitting patients medically. Nearly one half of the devices
         (47 percent) are not being used with physical therapy and more than half (64 percent) are
         not being used with occupational therapy, both of which could facilitate patient’s
         rehabilitation .


The qualifications of orthotic suppliers vary, with non-certified
suppliers in our sample the most likely to provide inappropriate
devices

Different groups supply orthotics

         The orthotic suppliers in our sample include a broad range of different provider groups.
         They most commonly include individual certified orthotists and prosthetists, as well as
         large durable medical equipment companies, some of whom report having certified
         orthotists on staff. Podiatrists, orthopedic surgeons, and general practice physicians are
         also providing beneficiaries with orthotic devices. Less typically, the suppliers in our
         sample include hospitals, radiologists, dermatologists, neurosurgeons, cardiologists, and
         anesthesiologists.

         Our supplier survey reveals that the qualifications of orthotic suppliers in our sample also
         differ. Sixty-eight percent are certified; of these, some employ certified orthotists, some
         contract with certified orthotists, and others do both. These differences in supplier
         qualifications are illustrated in Table 1 on the following page.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    15                             OEI-02-99-00120
                                                    Table 1
                                    Orthotic Suppliers’ Staff Qualifications

                                   Staff Qualification                        % of Suppliers*
           Certified Orthotist on Staff                                                 52
           Contract with Certified Orthotist                                             9
           Both                                                                          7
           Neither                                                                      32
            *25% of suppliers did not return survey                Source: Supplier Feedback Survey



            Some orthotic suppliers also use technicians to mold and fit orthotic devices. According
            to our survey, when specifically asked who molds and fits orthotics, 57 percent of
            respondents said non-certified staff. However, most have a certified orthotist
            supervising the molding and fitting.

Nearly half of non-certified suppliers provide inappropriate devices

            As shown in Table 1 above, we classify a supplier as non-certified if it has no certified
            orthotist on staff or does not contract with certified orthotists. While there are fewer
            non-certified suppliers than certified suppliers in our sample, non-certified suppliers are
            more likely than certified suppliers to provide inappropriate devices. Nearly half of
            these suppliers (46 percent) provide inappropriate orthotics, compared to 16 percent of
            certified suppliers. Miscoding appears to be the major problem with the devices
            provided by non-certified suppliers. Most of the inappropriate devices they provide are
            inappropriate because they are not accurately coded. Furthermore, some suppliers
            provided insufficient documentation to make a determination on coding accuracy.
            Certified suppliers are the most likely to provide such insufficient documentation.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    16                                     OEI-02-99-00120
                                     RECOMMENDATIONS

            The findings of this report, as well those from the recently released OIG report
            “Medicare Payments for Orthotic Body Jackets,” reveal that Medicare is inappropriately
            paying for some orthotic devices. Both studies identify miscoding as problematic,
            particularly for devices that are individually fitted to the patient’s measurements.
            Furthermore, this report shows that non-certified suppliers are the most likely to provide
            inappropriate devices.

            We therefore recommend that HCFA take action to improve Medicare billing for
            orthotic devices.

            The HCFA may want to consider the following options:

            C	
            C      Require suppliers to maintain a description of how custom fabricated and molded
                   devices are made. The OIG report on orthotic body jackets referenced above
                   recommends that suppliers include detailed information on the products they
                   provide on their claims. The HCFA responded that this would be burdensome to
                   providers and carriers. To avoid such a burden, we suggest that a description need
                   not be detailed and can be kept on file with the supplier. It could include basic
                   information such as whether or not a device was individually fitted to a patient’s
                   specific measurements. Such descriptions have already been developed by the
                   SADMERC and are required when suppliers seek clarification on appropriate
                   coding. The SADMERC descriptions could be used as models for suppliers to use
                   when billing for certain orthotic devices.

            C	     Develop product classification lists for all major groups of orthotic devices. In its
                   report on orthotic body jackets, the OIG recommended a revision of coding
                   guidelines. In its response, the HCFA stated that it would develop a product
                   classification list for the body jacket code L0430. We believe such lists would also
                   be useful for all orthotic groups. Given the complexity and rapid technological
                   changes in the orthotics industry, understanding the appropriate coding for these
                   devices can be confusing. Product classification lists would help to clarify the
                   appropriate codes for different types of devices. The carriers are already
                   discussing ways in which coding for orthotics can be clarified and we encourage
                   their efforts.

            C	     Educate the supplier community. We believe increased education of the supplier
                   community will enhance their understanding of coding requirements and
                   procedures.


                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    17                              OEI-02-99-00120
            C	     Work with the DMERCs to strengthen the billing process for orthotics. In our
                   companion report on carrier perspectives on orthotics, we discuss several carrier
                   practices and suggestions for improving the way in which orthotics are paid.
                   These include developing additional screens and edits, requiring suppliers to
                   submit a patient diagnosis as part of their claim, and establishing more specific
                   guidelines for “miscellaneous” codes.

            We also recommend that HCFA require standards for suppliers of custom molded
            and custom fabricated orthotic devices. Suppliers of these devices must be skilled in
            fitting and crafting an orthosis to the individual measurements of the patient. We believe
            that establishing standards would help to ensure that suppliers providing custom molded
            and fabricated devices have such skills and that the devices they supply are appropriate.
            The HCFA may want to consider establishing their own standards for orthotic suppliers
            or using already established industry certification.

            We believe that implementing these recommendations would eliminate as much as
            $43,007,300 annually in inappropriate Medicare orthotic payments.

Comments

            We received comments on the draft report from the Health Care Financing
            Administration. The HCFA generally concurs with our recommendations. In response
            to our recommendation that standards be required for suppliers of custom molded and
            fabricated devices, HCFA states that it is currently working on a proposed rule that will
            set general provider standards but not specific standards for custom orthotic suppliers.
            Given the specialized training and skills necessary for fitting and creating custom molded
            and fabricated devices, we continue to believe in the importance of additional standards
            for suppliers providing custom devices. The full comments are presented in Appendix
            D.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    18                             OEI-02-99-00120
                                                                            APPENDIX A



                         CONFIDENCE INTERVALS FOR KEY ESTIMATES

We calculated confidence intervals for five key estimates. The point estimate and 95% confidence
interval are given for each of the following:



           KEY ESTIMATE                           POINT ESTIMATE   CONFIDENCE
                                                                    INTERVAL
 Beneficiaries with                                      30%          +/- 4%
 miscoded device(s)
 Beneficiaries with medically                            7%           +/- 4%
 unnecessary device(s)
 Beneficiaries with medically                            16%          +/- 6%
 questionable device(s)
 Suspect cases (devices that                             20%          +/- 3%
 physician did not prescribe,
 physician had no record of patient
 for, or for which we were unable
 to locate the physician)
 Certified suppliers in sample                           68%          +/- 7%




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    19                       OEI-02-99-00120
                                                                                 APPENDIX B



                   CONFIDENCE INTERVALS FOR DOLLAR PROJECTIONS

We calculated confidence intervals for our dollar projections. The projected total and 95%
confidence interval are given for each of the following:



              CATEGORY                                   PROJECTED     CONFIDENCE
                                                           TOTAL        INTERVAL
 Miscoded devices                                        $33,071,800    +/- $6,341,00
 Medically unnecessary devices                           $ 9,935,507   +/- $4,440,683
 Medically questionable devices                          $ 1,165,224   +/- $1,017,577
 Suspect cases                                           $28,145,200   +/- $ 6,617,352




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    20                             OEI-02-99-00120
                                                                               APPENDIX C



                                       NON-RESPONDENT ANALYSIS

We tested for the presence of any non-response bias in our coding and medical necessity reviews.
For this inspection, a beneficiary for whom we did not obtain supplier documentation is a non-
respondent for our coding review; a beneficiary for whom we did not obtain medical records is a
non-respondent for our medical necessity review.

CODING REVIEW

To test for non-response bias in our coding review, we obtained information from HCFA’s
National Claims History 1 percent file for all 500 beneficiaries for whom we requested supplier
documentation. We obtained such documentation for 390 beneficiaries. The following table
illustrates the number of supplier responses obtained and the response rate by strata

STRATA                       NUMBER                      RESPONSE RATE

1 ($50 - $100)                  112                          22%
2 ($501- $1,000)                118                          24%
3 (> $1,000)                    160                          32%

We analyzed three variables for the 500 beneficiaries in our sample - gender, total orthotic claims,
and number of devices used. These categorical variables were tested using Chi-square with the
appropriate degrees of freedom. In order for the results to be statistically significant at the 95
percent confidence level, the Chi-square value must be higher than 3.84 with 1 degree of freedom.

The results of this analysis are presented in Tables A, B, and C. The Chi-square values given in
the tables provide a test of the difference between the distribution of respondents and that of the
non-respondents for the variable of interest. Also provided in the tables are the response rates by
the different values of the variables.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    21                          OEI-02-99-00120
                                                              Table A

                                                         GENDER
                             Respondents          Non-respondents          Total   Response rate
 Male                         147       38%              38          35%   185         79%
 Female                       243       62%              72          65%   315         77%


 Total                              390                        110         500         78%
 Chi-square = .365 Degree of freedom = 1

                                                              Table B

                                                           CLAIM
                                                          TOTALS
                             Respondents          Non-respondents          Total   Response rate
 < $1,000                     229       58%              71          64%   300         76%
 > $1,000                     161       41%              39          35%   200         80%


 Total                              390                        110         500         78%
 Chi-square = 1.214 Degree of freedom = 1

                                                              Table C

                                                   # OF DEVICES
                             Respondents          Non-respondents          Total   Response rate
 1 device                     146       37%              55          50%   201         73%
 > 1 device                   244       62%              55          50%   299         82%


 Total                              390                        110         500         78%
 Chi-square = 5.634 Degree of freedom = 1

                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    22                          OEI-02-99-00120
Tables A and B show no statistically significant differences between coding review respondents
and non-respondents for gender and total orthotic claims.

However, Table C shows a statistically significant difference between respondents and non-
respondents with respect to number of devices. In order to test whether this difference
introduced any bias, we analyzed the miscoding rate for differences between beneficiaries with 1
device and those with more than 1 device. The miscoding rate differed by 9 percentage points
between beneficiaries with 1 device and those with more than 1 device, so further analysis was
required. Assuming that non-respondents and respondents from the same group of beneficiaries
had the same miscoding rate, we calculated a hypothetical miscoding rate for all 500 beneficiaries
in the sample. This calculation gave only a slightly higher miscoding rate of 32 percent (compared
to 30 percent for respondents). This difference is not statistically significant.

Given the results of this analysis, we believe that the inspection findings fairly represent the
experience of Medicare beneficiaries in our sample.

MEDICAL NECESSITY REVIEW

To test for non-response bias in our medical necessity review, we obtained information from
HCFA’s National Claims History 1 percent file for all 500 beneficiaries for whom we requested
medical records. We obtained such records for 314 beneficiaries. The following table illustrates
the number of medical records obtained and the response rate by strata

STRATA                       NUMBER                      RESPONSE RATE

1 ($50 - $100)                   90                           29%
2 ($501- $1,000)                 95                           30%
3 (> $1,000)                    129                           41%

We analyzed three variables for the 500 beneficiaries in our sample - gender, total orthotic claims,
and number of devices used. These categorical variables were tested using Chi-square with the
appropriate degrees of freedom. In order for the results to be statistically significant at the 95
percent confidence level, the Chi-square value must be higher than 3.84 with 1 degree of freedom.

The results of this analysis are presented in Tables D, E, and F. The Chi-square values given in
the tables provide a test of the difference between the distribution of respondents and that of the
non-respondents for the variable of interest. Also provided in the tables are the response rates by
the different values of the variables.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    23                             OEI-02-99-00120
                                                              Table D

                                                         GENDER
                             Respondents          Non-respondents          Total   Response rate
 Male                         114       36%              71          38%   185         62%
 Female                       200       64%          115             62%   315         63%


 Total                              314                        186         500         63%
 Chi-square = .175 Degree of freedom = 1

                                                              Table E

                                                           CLAIM
                                                          TOTALS
                             Respondents          Non-respondents          Total   Response rate
 < $1,000                     185       59%          115             62%   300         62%
 > $1,000                     129       41%              71          38%   200         64%


 Total                              314                        186         500         63%
 Chi-square = .412 Degree of freedom = 1

                                                              Table F

                                                   # OF DEVICES
                             Respondents          Non-respondents          Total   Response rate
 1 device                     126       40%              75          40%   201         63%
 > 1 device                   188       60%          111             60%   299         63%


 Total                              314                        186         500         63%
 Chi-square = .002 Degree of freedom = 1

                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    24                          OEI-02-99-00120
Tables D, E, and F show no statistically significant differences between medical review
respondents and non-respondents for gender, total orthotic claims, and number of devices.

Given the results of this analysis, we believe that the inspection findings fairly represent the
experience of Medicare beneficiaries in our sample.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    25                             OEI-02-99-00120
                                                                            APPENDIX D


In this appendix, we present in full the comments from the Health Care Financing Administration.




                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    26                       OEI-02-99-00120
                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    27       OEI-02-99-00120
                                                     )))))))))))
Medicare Payments for Orthotics-Inappropriate Payments    28       OEI-02-99-00120
